                              Pension Benefit Guaranty Corporation
                                                              Office of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


										                                                                      April 30, 2008

The Board of Directors
Pension Benefit Guaranty Corporation


On behalf of the Office of Inspector General for the Pension Benefit Guaranty Corporation, I am
pleased to submit this Semiannual Report to the U.S. Congress for the 6-month period ending March
31, 2008. It details our efforts to improve the economy and efficiency of PBGC operations, our efforts
to prevent fraud, waste and misconduct, and fulfills our reporting requirements under the Inspector
General Act.

Once again, both PBGC and OIG experienced leadership changes. On December 20, 2007, Charles E.F.
Millard was sworn-in as PBGC’s first presidentially-appointed Director. Much of Mr. Millard’s time was
devoted this period to developing and presenting a new investment policy to the Board of Directors in
February. He continued to support other PBGC leaders as they address PBGC’s challenges. PBGC also
welcomed a new Chief Financial Officer, Patricia Kelly, who worked with the investment management
staff to develop PBGC’s new investment policy. The OIG has established effective collaborative
relationships with PBGC leaders, each of whom is committed to strengthening PBGC’s financial
condition and providing excellent customer service.

We are pleased to announce the selection of a new Inspector General, Rebecca Batts, who joined
our team on April 28. Ms. Batts is a CPA and has 25 years of experience as an auditor, manager and
leader in the OIG community, first at the Department of Agriculture OIG, then at the Department of
Transportation OIG. We welcome her and look forward to her leadership.

During this period, we continued to focus our work on PBGC’s major management challenges areas:
Governance, Stewardship, PBGC Business Model, Information Technology, and Procurement and
Contracting. This work includes audits, investigations, management advisories and consultations on
these significant issues the Board and PBGC face.

Because PBGC has more than $60 billion in assets and pays participants over $4 billion each year,
we devoted significant audit and investigative resources in the Stewardship management challenge
area. Our office continues to work closely with management in developing corrective actions to
address outstanding internal control deficiencies we have reported in our financial statement audits.
Likewise, in our investigative activities, we aggressively pursued individuals who fraudulently obtained
participants’ pension benefits to deter fraudulent claims, protect the pension benefits of participants
and safeguard PBGC assets. We commend PBGC leaders for focusing attention on resolving
outstanding internal control deficiciences and in supporting our investigative activities.
We continued reviewing the multiemployer program, whose trust fund experienced
an increased deficit, and issued the first report of several audits of terminated but not
yet insolvent multiemployer pension plans. Following a Government Accountability
Office report finding fraud and internal control weaknesses in mass transportation
subsidy programs, we reviewed PBGC’s two transportation subsidy programs. We
conducted audits and investigations to address information technology concerns,
including an evaluation of PBGC’s development of a new premium accounting system
and an investigation of a possible disclosure of personal information. In contracting
and procurement, we conducted work relating to PBGC’s contract administration and
incurred costs, and began monthly fraud training sessions with procurement staff to
build their skills and protect the integrity of the procurement process.

It has been a pleasure to serve as the Acting Inspector General for the past seven
months. I thank the OIG staff, and in particular the Assistant IG for Audits Luther Atkins
and the Assistant IG for Investigations Aaron Jordan whose leadership exemplifies
our values of respect, excellence and integrity. I am honored to serve with you all. I
also appreciate the spirit of cooperation with the Board and PBGC, and the openness
to discuss PBGC’s challenges and possible solutions. We are proud to be part of
an organization that protects the pensions of over 44 million Americans, and will
constantly strive to keep its programs efficient, effective, and free from fraud, waste
and abuse.




Deborah Stover-Springer
Deputy Inspector General




Pension Benefit Guaranty Corporation
Table of Contents
Letter to the Board of Directors


Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	      The Pension Benefit Guaranty Corporation
	      The Office of Inspector General

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
	      Governance
	      Stewardship
	      PBGC Business Model
	      Information Technology
	      Procurement and Contracting
	
Other OIG Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
	      Access to Information
	      Management Decisions

Other Office of Inspector General Activities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
	      Review of Proposed Statutory and Regulatory Changes
	      Assistance to Other OIGs
	      Chinese Delegation Visits PBGC OIG
	      Audit Peer Review of CPB
	      OIG Strategic Initiatives
	      External Activities
	
Appendix  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
	      Cross-Reference to Reporting Requirements of the Inspector General Act
	      Reports Issued with Questioned Costs and Funds Put to Better Use
	      Significant Problems, Deficiencies and Recommendations
	      Summary of Investigative Activities




                                                Semiannual Report Of The Inspector General—MARCH 2008                                      iii
Pension Benefit Guaranty Corporation
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments of
the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG) for
the period October 1, 2007 through March 31, 2008. When accomplishing audit and
investigative work, we ensure that it accords with our mission to be an independent
and objective voice for Congress, the Board of Directors, and PBGC. We want to focus
our work on the challenges facing PBGC and to be the primary source of timely and
objective information for the organization.
We have designated five areas as PBGC’s major management challenges: Governance,
Stewardship, PBGC’s Business Model, Information Technology, and Procurement
and Contracting. We plan audit and proactive investigative work to address these
challenges. Significant audit and investigative activity this period includes:
• Governance— We provided requested information to Congress and met with the
Board of Directors to support their oversight responsibilities; we followed-up on prior
audit reports that recommended actions to strengthen internal governance (see pages
5-7).
• Stewardship— With respect to the financial statement audit, we issued:
     • the 15th consecutive unqualified opinion and associated reports;
      • a limited disclosure internal control report that applied a new reporting
        standard, resulting in closure of one condition and roll-up of another condition
        into one of the three significant deficiencies;
      • a management letter, and a lessons learned report.
 Investigations aggressively pursued prosecution and recoveries from individuals who
fraudulently obtained pension benefits, laptop thefts, possible social security number
fraud, and threats to employees and contractors (see pages 8-13).
• PBGC’s Business Model— We reported that a terminated but not yet insolvent
multiemployer plan’s assets were being depleted quickly because of high administrative
costs and PBGC might be able to save millions of dollars if it could close the plan before
all assets are depleted. We’ve completed and briefed our work on PBGC’s mass transit
benefits and subsidized parking program and found internal control issues that could
allow abuse (see pages 13-17).
• Information Technology — We conducted work and briefed initial findings related
to PBGC’s development of a premium practitioner system; began a review of PBGC’s
implementation of the new internet protocol; were briefed on PBGC’s actions on
a system we recently audited; and investigated a possible comprise of personally
identifiable information (see pages 18-21).
• Procurement and Contracting— As the result of an audit, we reported that PBGC
needs to strengthen contract admnistration. The Procurement Director took steps to
correct long-standing weaknesses, including issuing a procurement procedures manual.
An investigation concluded that a PBGC employee disclosed procurement sensitive
information, and investigators began monthly fraud training sessions with procurement
staff for prevention and detection of fraud (see pages 21-23).

Among the OIG’s other activities, we assisted several OIGs; conducted an audit peer
review, implemented electronic management systems for audit and investigations;
developed and implemented a new performance management system; and
participated in IG community initiatives.

                                Semiannual Report Of The Inspector General—March 2008        1
2   Pension Benefit Guaranty Corporation
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly owned federal government
Corporation to administer the pension insurance program. ERISA requires that PBGC:
(1) encourage the continuation and maintenance of voluntary private pension plans, (2)
provide for the timely and uninterrupted payment of pension benefits to participants and
beneficiaries, and (3) maintain premiums at the lowest level consistent with carrying out
PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement benefits
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
defined benefit pension plans (i.e., plans that promise to pay definitely determinable
retirement benefits). Such defined benefit pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about 1.3
million people.

PBGC manages over $68 billion in assets and pays about $360 million a month to about            Rebecca Batts is PBGC’s
600,000 current retirees. Despite significant deficits in both the single-employer and          new Inspector General.
multiemployer programs, the Corporation has sufficient liquidity to meet its obligations
for a number of years. However, neither program at present has the resources to satisfy
all of the benefit obligations already incurred, much less future obligations likely to be
assumed.

The Office of Inspector General
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. Our mission is to be an independent and objective voice
that helps the Congress, the Board of Directors, and PBGC protect the pension benefits
of American workers by promoting positive change, accountability, and integrity. The
Secretary of Labor, as Chair of PBGC’s Board of Directors, recently selected Rebecca Batts
as PBGC”s third Inspector General.

With twenty-two staff, the OIG conducts agency audits, inspections and investigations;
participates in agency-wide working groups; and provides consultations to provide our
stakeholders with information they need to make decisions. We are committed to our
values of respect, excellence, and integrity in all we do.

To provide value, we focus our work on the challenges facing PBGC. Each year, we assess
risk in terms of materiality, impact on operations, and potential for adverse publicity for
the Corporation. Based on this risk assessment, we identify the most important challenges
on which to focus our work. The OIG follows the standards contained in the Quality
Standards for Federal Offices of Inspector General, published by the President’s Council on
Integrity and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency (ECIE),
which incorporate Generally Accepted Government Auditing Standards, issued by the
Government Accountability Office. Our investigations comply with PCIE and ECIE Quality
Standards for Investigations.

                                Semiannual Report Of The Inspector General—March 2008           3
                                  The OIG has developed its own Mission, Vision and Values statements.

                                  Mission

                                  The Office of Inspector General is an independent and objective voice that helps
                                  Congress, the Board of Directors and PBGC protect the pension benefits of American
                                  workers by promoting positive change, accountability and integrity.

                                  Vision

                                  We will be recognized by our stakeholders as the primary source of objective and
                                  independent information for their key decisions.

                                  Values

                                  RESPECT – fair and equitable actions
We                                We will:
 This period we defined            •	 Approach our work assuming that all are trying to do their best at work everyday.

     our values of respect,        •	 Enhance personal and professional growth to better understand and use people’s
                                      diverse strengths and experiences.
        excellence and
                                   •	 Benchmark when considering technology solutions to enhance the value of our
           integrity.                 work and IT infrastructure.
                                   •	 Treat each other with dignity, compassion, and fairness.


                                  EXCELLENCE – work of distinction
                                  We will:
                                   •	 Deliver high quality products and services that are timely and accurate, while
                                      maintaining independence.
                                   •	 Participate in formal and informal training and networking to continuously build
                                      our knowledge, skills and abilities.
                                   •	 Leverage technology to innovate and improve the quality and value of our work.
                                   •	 Share in the responsibility and accountability for the OIG’s success.


                                  INTEGRITY – personal accountability
                                  We will:
                                   •	 Demonstrate decency and honesty and accept personal responsibility for our
                                      actions.
                                   •	 Invest in our development and training to ensure we are a model of professional
                                      and ethical standards.
                                   •	 Use available up-to-date technology, processes, and procedures to accomplish our
                                      work and protect confidential data.
                                   •	 Be open and trustworthy in our daily interactions.



                              4   Pension Benefit Guaranty Corporation
Management Challenges
As it expected, in the first half of FY2008, PBGC trusteed fewer pension plans and became
responsible for paying future benefits to fewer participants than in past years. PBGC
recently adopted a new investment strategy, which will result in greater investment
in equity and alternative asset classes. It continues to implement the major statutory
amendments as a result of the Pension Protection Act of 2006 and the Deficit Reduction
Act of 2005, including higher premium rates and more strict pension plan funding
requirements. Plan sponsors are beginning to challenge, and courts consider, PBGC’s
application of these new statutory authorities. These are just some external factors that
create new challenges and opportunities for the Corporation.

We’ve identified five major management challenge areas: Governance, Stewardship,                We identified PBGC’s top
PBGC’s Business Model, Information Security, and Procurement and Contracting. Our
goal is to conduct audit and investigative work in all management challenge areas and           Management Challenges:
have a positive impact on the decision-making process of the Board of Directors and             • Governance
PBGC management.
                                                                                                • Stewardship
1.	     Governance                                                                              • Business Model

In addition to Congress, PBGC’s external governance includes a Board of Directors               • Information Security
who set policy, and their Board Representatives. Internal governance includes internal
                                                                                                • Procurement
controls and clearly articulated authority to act, reporting structure and guidance to
implement policies. Moreover, PBGC has some challenging governance dichotomies to
manage, such as:

  •	 it is a financial corporation with billions of dollars of assets to manage yet is also a
     federal agency that provides an insurance program;
  •	 its Board of Directors is comprised of three cabinet-level Secretaries - Labor, Treasury
     and Commerce - who oversee and set policy for PBGC, yet it also has a Presidentially-
     appointed, Senate-confirmed Director who administers PBGC;
  •	 it deals with some of the largest U.S. employers in fulfilling its mission to encourage
     continuation of defined benefit pension plans, yet must aggressively protect the
     benefits owed to those participants should those employers seek to terminate their
     pension plans;
  •	 it must be cognizant of the health of the larger U.S. economy, yet maximize
     settlements from bankrupt sponsors of terminated plans to protect PBGC’s financial
     health as it struggles with a deficit.


Oversight of the financial operations and financial reporting by the Board of Directors,
PBGC management and the OIG is critical to effective corporate governance. Equally
important is the ethical tone set by PBGC leaders.




                                  Semiannual Report Of The Inspector General—March 2008          5
                               Congressional Oversight

                               Congressman Waxman, as Chair of the House Committee on Reform and Government
                               Oversight, requested all Offices of Inspector General to provide a listing of significant
                               recommendations that were outstanding and their agencies’ progress in taking
                               corrective action. Because PBGC has taken OIG recommendations seriously,
                               developed corrective action plans, and management has followed up, we were able to
                               provide Congressman Waxman with a brief, positive response.

                               The Board of Directors Oversight

                               The OIG briefed the Board of Directors on the results of the FY2007 financial statement
                               audit at its semiannual meeting in February. The Board was aware of PBGC’s 15th
                               consecutive “clean” financial statement audit opinion since the Board participates in
                               its review prior to the November 15 issuance. The briefing included the application of
 The Board of Directors,       new audit reporting standards that resulted in reporting three significant deficiencies
                               in the Report on Internal Control, and a discussion of new reporting standards for
 assisted by their Board
                               the FY2008 audit. We commended PBGC’s leadership team in setting the tone for
Representatives, are an        effective working relationships with the OIG. The Acting Inspector General also met in
                               Executive Session with the Board.
important part of PBGC’s

      governance.              The Acting IG and Assistant IG for Audits met with the Assistant Secretary of the
                               Employee Benefits Security Administration (EBSA), who is the Board Representative
                               for Board Chairman/Secretary of Labor, and high-level EBSA managers. Among topics
                               discussed were our audit plan and prospective work, and a series of audits involving
                               terminated multiemployer plans for which EBSA still has oversight responsibility. We
                               agreed on some communication protocols between our offices on these audits. As a
                               result, our office, PBGC’s Office of Insurance Programs and EBSA staff have engaged in
                               on-going dialogue about potential findings and recommendations.

                               Management Action on OIG Internal Governance
                               Recommendations

                               Good internal governance includes setting policy at a high level and then
                               implementing operational guidance and procedures, maximizing collaboration
                               among departments and communication of issues to facilitate good decision-making,
                               and practicing effective internal controls that safeguard assets and information
                               and promote integrity. This period we followed-up on two reports in which we
                               recommended, among other things, that PBGC establish policy.

                               Claims Sale Report (2006-11/PA-0029)
                               In August 2006, we evaluated PBGC’s actions in marketing and selling a significant
                               equity interest in a reorganizing private sector business prior to its emergence from
                               bankruptcy. Our review resulted in recommendations to establish policy, internal
                               guidance regarding responsibilities and internal and external communications, and
                               standard documentation for such dispositions. PBGC agreed with our findings and
                               recommendations. In December 2006, we briefed the report to the Board of Directors’


                           6   Pension Benefit Guaranty Corporation
Representatives. PBGC management reported that it was taking action to implement
the report’s recommendations in three areas: investment and other asset-sale related
policies, corporate governance, and documentation.

This period, we followed-up on the implementation of our recommendations.
The Board adopted a new investment policy at its February 2008 meeting, which
included asset holding guidance. PBGC has taken steps to strengthen practices
and communications related to potential claims sales with the Board of Directors’
Representatives and within the Corporation, such as instituting significant case update
meetings. PBGC also reported that it drafted protocols to guide communications
between PBGC and the Board. PBGC and the Board Representatives are working to
finalize the protocols for Board consideration and approval.

The Corporation has taken important first steps to implement our recommendations
to improve inter-departmental communications and those with the Board. However,
we will continue our follow-up with management because the Corporation should                     Internal governance
have well-documented policies and implementing procedures so there is clarity of              includes written policies
expectations, scope and limitations of responsibility and authority to act, and effective
oversight.                                                                                        and procedures that

                                                                                                  establish scope and
Claims for Disability Benefits and Earnings Limitations Audit (2005-PA-0016)
                                                                                                   authority to act.
In February 2006, we issued a report that examined PBGC’s ability to identify, monitor
and process required benefit adjustments to participants who are receiving disability
retirement payments or are subject to earnings limitations. Each pension plan that
PBGC terminates and trustees has certain restrictions on benefits. Such restrictions
may include a determination of continued disability and terminating the payment if no
longer disabled, and reducing the benefit based on earned income or receipt of social
security. We found that PBGC could not identify the universe of participants who may
be subject to such benefit reductions, and therefore may be paying benefits to which
participants are not entitled. Among others, we recommended that PBGC establish an
overall policy to require identification and verification of plan participants’ continuous
eligibility for benefits, and implement information systems controls to identify and verify
continuous eligibilty for benefits.

PBGC reported that the formulation of this policy is in the policy agenda and will be
completed in FY2008.

OIG Member of PBGC Internal Control Committee

The Assistant Inspector General for Investigations (AIGI) serves as a non-voting
member of the PBGC Internal Control Committee. This committee is responsible for
oversight and accountability regarding PBGC internal controls over financial reporting
and operations consistent with the Standards for Internal Control for the Federal
Government (GAO Green Book), OMB Circular A-123, and Federal Managers’ Financial
Integrity Act requirements. Of the concerns the committee addressed this period, the
AIGI had significant input into the potentially invalid social security numbers (see page
13).


                                Semiannual Report Of The Inspector General—March 2008         7
                              2. Stewardship
                              The OIG’s work in the “Stewardship” area focuses primarily on PBGC’s stewardship
                              of entrusted resources. Our efforts include fraud prevention, detection of improper
                              payments, protecting participant data, and safeguarding plan assets close to plan
                              termination, as well as the Corporation’s overall financial management.

                              Significant OIG resources were devoted to work in the Stewardship challenge:

                               •	 In audit, the primary focus was auditing PBGC’s financial statements and
                                  conducting associated work.
                               •	 In investigations, we identified, assisted with prosecuting, and obtained recoveries
PBGC received its 15th
                                  from those who fraudulently received pension benefits. We also identified
consecutive unqualified           weaknesses in particular pension benefit payment processes for management
                                  correction to help prevent future fraud.
  financial statement
                               •	 The OIG financial audit manager is participating in the PBGC audit follow-up
    audit opinion.                working group which is ready to issue an agency order regarding the process
                                  of following up on, and communicating the status of, outstanding OIG and
                                  GAO audit recommendations in a timely manner, as well as the process of audit
                                  recommendation resolution.


                              Audit of the Pension Benefit Guaranty Corporation’s
                              Fiscal Year 2007 and 2006 Financial Statements
                              (2008-1/FA-0034-1)

                              For the fourth consecutive year, PBGC issued its audited FY2007 financial statements
                              by the November 15th deadline. This was made possible by the team effort of PBGC
                              management and staff, the Board Representatives, Clifton Gunderson LLP, and the OIG.
                              For the 15th consecutive year, PBGC received an unqualified audit opinion.

                              We contracted with the independent public accounting firm of Clifton Gunderson LLP
                              to audit the financial statements of the Single-Employer and Multiemployer Program
                              Funds administered by PBGC, as of and for the years ended September 30, 2007 and
                              2006. The audit was performed in accordance with auditing standards generally
                              accepted in the United States of America, Generally Accepted Government Auditing
                              Standards issued by the Comptroller General of the United States, OMB’s Bulletin No.
                              07-04, and the methodology in the GAO/PCIE Financial Audit Manual.

                              As a result of Clifton Gunderson’s audit of the Single-Employer and Multiemployer
                              Program Funds administered by PBGC, Clifton Gunderson reported that:

                               •	 The financial statements were fairly presented, in all material respects, in
                                  conformity with accounting principles generally accepted in the United States of
                                  America.
                               •	 PBGC’s assertion about internal control over financial reporting (including
                                  safeguarding of assets) and compliance with laws and regulations as of September
                                  30, 2007, was fairly stated in all material respects. However, there were three


                          8   Pension Benefit Guaranty Corporation
    significant deficiencies for FY2007 regarding PBGC’s need to:
      •	 complete its efforts to fully implement and enforce an effective information
         security program,
      •	 effectively implement consistent controls to restrict access to information
         systems, and
      •	 integrate its financial management system.
  •	 There were no instances of noncompliance with tested laws and regulations that
     would have a direct and material effect on the financial statements.

Report Format Changed. Rather than issuing three separate audit reports, this year
the OIG requested that Clifton Gunderson issue one combined audit report, which is
similar to other Federal government agency financial statement audit reports. This              We issued one combined
report included the following sections:
                                                                                                financial statement audit
  •	 Report Summary;
                                                                                                     report and a limited-
  •	 Opinion on the Financial Statements, as of and for the years ended September 30,
     2007 and 2006;                                                                                   disclosure detailed
  •	 Opinion on Management’s Assertion about Internal Control;                                      internal control report.
  •	 Compliance with Laws and Regulations;
  •	 The Audit Objectives, Scope and Methodology; and
  •	 The Agency’s Comments and our Evaluation of the comments.

Clifton Gunderson included the details for each of the three significant deficiencies
in a separate, limited disclosure report. The auditors limited the distribution of this
report to PBGC management.

Internal Control Opinion: New Reporting Standard Applied - For FY2006, Clifton
Gunderson had included four reportable conditions in its report on internal control.
These related to:

  •	 the lack of an integrated financial management system;
  •	 improvements needed in PBGC’s information security program;
  •	 weaknesses related to single-employer premiums; and
  •	 PBGC’s need to strengthen its preparedness for unanticipated incidences and
     disruptions (continuity of operations plan or COOP).

Effective for the FY2007 financial statement audit period, there was a significant
change for reporting on internal control. The American Institute of Certified Public
Accountants issued new Statement on Auditing Standard (SAS) 112, that governs how
the auditor communicates internal control matters identified as part of the financial
statement audit. The most significant impact of this standard relates to the auditor’s
reporting of control deficiencies that can have an adverse effect on the entity’s ability
to initiate, authorize, record, process, or report financial data reliably, and the potential
for a material misstatement to occur in the financial statements and not be prevented
or detected in a timely manner. In the past, the auditors classified these weaknesses


                                  Semiannual Report Of The Inspector General—March 2008         9
                          as material weaknesses (the highest level of significance), reportable conditions, or
                          less significant management letter comments. Under the new standard, reportable
                          conditions are called “significant deficiencies.” In addition, the threshold for reporting
                          weaknesses in the Report on Internal Control has been lowered.

                          During the FY2007 audit, Clifton Gunderson tested and evaluated PBGC’s progress in
                          addressing each of the reportable conditions. Then, they independently assessed the
                          significance and impact of all of the issues identified during the audit, using the criteria
                          outlined in the new SAS 112. As a result, Clifton Gunderson:
PBGC reduced the
                            •	 removed the reportable condition related to COOP.
number of reported
                            •	 included the remaining issues related to single-employer premiums (i.e., the lack
 internal control              of an adequate premiums recordkeeping system) in the significant deficiency on
                               integrated financial management system.
   weaknesses.
                            •	 retained the significant deficiency related to the information security program,
                               and
                            •	 reported an additional significant deficiency related to information systems’ access
                               controls. This new significant deficiency was the culmination of a number of
                               less-significant prior-year findings, formerly reported in the management letter,
                               as well as the result of implementing a lower threshold for reporting significant
                               deficiencies under the new auditing standard.

                          Special Purpose Financial Statements - Clifton Gunderson also examined the special-
                          purpose financial statements (2008-3/FA-0034-3) that PBGC prepares for submission
                          to the Department of the Treasury through the Government-wide Financial Reporting
                          System. These special-purpose financial statements link PBGC’s audited financial
                          statements to the FY2007 Financial Report of the United States Government. Clifton
                          Gunderson issued PBGC an unqualified opinion on the special-purpose financial
                          statements.

                          We are encouraged by the Corporation’s actions to improve financial management. In
                          particular we note activities of the new CFO and CIO:

                            •	 In November 2008, PBGC hired a new Chief Financial Officer, who transferred from
                               another Federal government agency to PBGC. When she arrived, she immediately
                               began working with the Director and FOD staff to update the Corporation’s
                               investment policy. PBGC presented the revised policy to the Board of Directors for
                               their approval in February 2008. The CFO has also been working with the steering
                               committee that is implementing a new premium system.
                            •	 The new Chief Information Officer has taken steps to reorganize the Office of
                               Information Technology (OIT), improve communications between OIT and the
                               rest of PBGC, improve systems and general controls, and enhance the roles
                               and responsibilities for risk management and information security. However,
                               several weaknesses in general controls continue to exist, thus preventing PBGC
                               from implementing effective security controls to protect its information from
                               unauthorized access, modification, and disclosure.



                     10   Pension Benefit Guaranty Corporation
  •	 PBGC implemented a new general ledger system at the beginning of FY2007
     as part of PBGC’s corrective action plan to correct the systems integration
     issue. However, PBGC still lacks an integrated financial management system,
     thus requiring extensive data manipulation and excessive manual processes to
     reconcile financial statement information.

The most important ingredient to correcting the remaining significant deficiencies is
continued commitment on the part of management to implement corrective actions.
PBGC’s top leadership continues to emphasize the importance of correcting all of
the significant deficiencies. OIG and Clifton Gunderson meet regularly with the Chief
Financial Officer, the Chief Information Officer, other Executives, and department
directors to discuss significant internal control deficiencies and to provide guidance in
developing corrective action plans.                                                              PBGC is committed

Fiscal Year 2007 Financial Statement – Management Letter                                          to implementing
(2008-5/FA-0034-4)                                                                          corrective actions and

During the financial statement audit, Clifton Gunderson identified certain matters           improving financial
related to PBGC’s internal controls and operations that were not included in their                 management.
report on internal control. The Management Letter report summarizes their
findings and recommendations for FY2007 and includes the status of prior year
recommendations. The Management Letter report includes both financial and
information technology issues. Although these findings are not significant, we inform
PBGC management of the issues so corrective actions can be taken and they do not
become significant deficiencies.

We discussed the recommendations with PBGC management and they agreed to
implement corrective actions. Because this report is for management’s internal use, it
is not on our OIG website.

Lessons Learned from the FY2007 Financial Statement Audit
(2008-7/FA-0048)

For the fourth consecutive year, the OIG, in cooperation with the CFO, conducted
a survey to identify lessons learned during the audit of PBGC’s FY2007 financial
statements. After the OIG compiled the survey responses, key stakeholders met
to discuss the results and provide suggestions for improvement. Our goal was to
incorporate best practices into future audits of the financial statements and improve
on those practices and procedures that were not efficient or effective.

Best practices identified included:

  •	 The regular audit status meetings, including those for separate subject matter
     areas, as well as the weekly prepared-by-client (PBC) documentation request
     status meetings.
  •	 Designating one Clifton Gunderson staff member as a point of contact for
     documentation requests, and in general, one Functional Area Representative (FAR)
     as point of contact from each major PBGC department involved in the audit.

                                 Semiannual Report Of The Inspector General—March 2008      11
                               •	 The Contracts and Control Review Department’s (CCRD) coordination and
                                  facilitation of receiving and distributing documentation requests and tracking the
                                  status of prior-year audit recommendations.
                               •	 The early meetings set up by CCRD to discuss the status of prior-year significant
                                  deficiencies, the PBC list, and any other possible issues that may impact the
                                  upcoming audit.

                              However, the strong commitment to the audit process on the part of everyone,
                              especially the senior leaders, was key to the success of the process.

                              Areas for improvement included:

                               •	 Further refinement of the audit protocol process,
                               •	 Issuance and implementation of the revised audit follow-up order, and
                               •	 More timely communication of potential audit findings.


                              Investigations

                              Since one of PBGC’s primary missions is to pay pension benefits to participants whose
                              plans can no longer do so, a major emphasis of investigations is fraud deterrence. We
                              accomplish that by aggressively identifying the perpetrators, seeking federal or local
We recovered money and        prosecution, obtaining agreements to repay stolen money to PBGC, or providing
successfully prosecuted       sufficient evidence to PBGC for administrative collection efforts. We also educate
                              PBGC employees and contractors about fraud indicators and identify program
 individuals who stole        weaknesses that can be exploited for fraud. While the amount of recoveries is not
   pension benefits.          large, OIG aggressively pursues cases involving theft of benefits to prevent and deter
                              fraud. Some of the cases we concluded this period included theft of pension benefits,
                              participants’ identities and other resources, and threats against PBGC personnel:

                               •    Prosecution and Recovery of $15,000. We previously reported that a participant’s
                                   daughter failed to report her father’s death to the PBGC, resulting in her
                                   continuing to receive his pension benefits to which she was not entitled. Before
                                   PBGC discovered the fraud, the daughter received $15,004. The daughter was
                                   prosecuted, received probation of 18 months, and ordered to pay restitution of
                                   $15,004 to the PBGC. In addition, she is required to serve 125 hours of community
                                   service and pay $1000 in court and attorney fees.

                               • Recovery of $20,000. A participant in Hawaii called the PBGC Customer Service
                                   Center to inquire about the status of his benefit payments. When PBGC discovered
                                   that his monthly payments were being sent to someone else’s account, the matter
                                   was referred to OIG for investigation. We traced the funds through multiple bank
                                   accounts and found a woman in Texas was receiving the funds. The U.S. Attorney’s
                                   Office in San Antonio accepted the matter for possible prosecution. Because the
                                   fraudster was legitimately receiving a pension benefit from PBGC, she was offered
                                   the ability to repay the $20,199 she fraudulently received in lieu of prosecution.
                                   She agreed to a 5-year, 50% recoupment from her current benefit payments. This
                                   was a positive outcome for the government: we saved the costs of a prosecution

                         12   Pension Benefit Guaranty Corporation
  and PBGC will be reimbursed by withholding payments rather than relying on the
  participant to comply with court-ordered payments. Because the OIG concluded
  that the participant in Hawaii had no part in the fraud, PBGC has taken steps to pay
  the participant his back benefit payments.

• Invalid Social Security numbers.   The OIG received information indicating that
  numerous social security numbers (SSNs) for participants who are in pay status or
  entitled to future benefits were invalid. We joined with other PBGC departments           Working with PBGC
  - representatives from the Contracts and Controls Review Department, Office of
  the General Counsel, and Benefits Administration & Payment Department - to                    management,
  determine the validity of these numbers. We also met with the Social Security                 we investigated
  Administration OIG regarding verification of the SSNs, as well as discussed a
  potential joint investigation if we determined that fraudulent activity was involved.    participants’ invalid
  In an independent review by our Office of Investigations, we determined these
                                                                                          social security numbers.
  particular invalid social SSNs were not fraudulent because:
    •	 Many invalid SSNs were “dummy” numbers entered by PBGC for individuals
       whose numbers were unavailable due to illegal immigration status or missing
       information from prior paying agents.
    •	 Data entry errors accounted for a significant amount of invalid numbers.

• Theft of Laptop. We previously reported that we recovered a stolen PBGC laptop
  from a contractor’s residence. Due to concerns that privacy information may have
  been contained on the laptop, we initiated a forensic analysis which revealed
  that the laptop contained no privacy information nor was used in any illegal
  activity. The analysis did indicate the laptop was used for unofficial business and
  personal use. The contractor is no longer employed at PBGC. The United States
  Attorney’s Office declined prosecution and the matter has been referred to PBGC
  management.

• Communication of threats. We were notified that one of the PBGC Field Benefit
  Administration offices and the PBGC Customer Contact Center received a call from
  an irate participant concerning pension benefits. The participant subsequently
  threatened to set himself on fire and enter the PBGC facility. We notified the local
  law enforcement authorities who went to the participant’s home to warn him of
  the serious nature and consequences of making threats to federal entities.

  Another PBGC Field Benefit Administration office and the PBGC Customer Contact
  Center received a call from a different irate participant concerning pension
  benefits. OIG Office of Investigations had conducted a criminal case involving
  this participant for pension fraud in 1999. As a result of our investigation, the
  participant was convicted, served time and was required to pay back more than
  $40,000 to the PBGC. This participant sent an email and threatened to “shoot the
  official at the PBGC.” We notified the local law enforcement authorities who went
  to the participant’s home to warn him of the serious nature and consequences of
  making threats to federal entities.




                              Semiannual Report Of The Inspector General—March 2008        13
                             3.	     PBGC’s Business Model
                             PBGC’s business environment is changing. For example, PBGC expects the current
                             decline of pension plan terminations and fewer participants will continue over the
                             next few years, and it will receive more premium income as a result of the Pension
                             Protection Act. It needs to improve its information security program (see management
                             challenge below) and make decisions about updating old business systems in an era
                             of relatively static budget projections. It is a small federal entity dealing with some of
                             the largest and most sophisticated U.S. corporations in negotiations and litigation to
                             protect pension plan participants. One of PBGC’s significant management challenges
                             is to adapt how it conducts business in its changing environment — to have the
                             right staff and resources in the right place when it is needed. In the “Business Model”
                             challenge, OIG conducts work to evaluate PBGC programs and identify options
                             for adapting to its changing environment, while providing superior service and
                             generating cost-savings.

                             PBGC’s Multiemployer Program

                             Though the majority of PBGC’s resources are devoted to terminated single-employer
                             pension plans, PBGC is also responsible for multiemployer plans when they terminate
                             and become insolvent. Multiemployer plans are sponsored by several employers,
                             generally covering employers in the same industry whose employees are represented
                             by a union. The multiemployer plans are governed by trustees from the employers
                             and unions and, until recent years, were not a significant financial impact on PBGC.
                             When a multiemployer plan terminates, it is operated as a “wasting trust” until all
                             assets are depleted, at which time it begins to receive financial assistance, in the form
                             of loans, from PBGC so it can continue paying guaranteed benefits to participants.
                             As PBGC does not assume trusteeship of multiemployer plans (like it does for single
                             employer plans), these plans continue to incur administrative expenses until the final
OIG is focusing on
                             benefit payment is made. Because the plans’ trustees are responsible for operating
the multiemployer            the plans, they also remain under ERISA’s Title I requirements and the DOL’s Employee
                             Benefits Security Administration jurisdiction.
program because

the multiemployer            Over time, more multiemployer plans are terminating and PBGC is providing financial
                             assistance loans to pay guaranteed benefits when they become insolvent. Because
trust fund deficit is
                             these plans are generally in declining industries, PBGC has little, if any, prospect of
continuing to grow.          collecting on these loans. As a result, the multiemployer trust fund has experienced
                             a significant decline. At the end of FY 2005, the multiemployer program had a net
                             deficit of $335 million and by the end of FY 2007 the deficit had grown to $995 million.

                             Last year we issued an audit report finding PBGC could save about $1.9 million in
                             future administrative costs it pays to certain insolvent multiemployer pension plans
                             and recommended that PBGC close these plans by funding the purchase of annuities
                             or lump sum payments for the participants. Based on these identified cost savings, we
                             expanded our audit coverage to include multiemployer plans that are terminated but
                             not yet insolvent. These are plans that currently have sufficient funds to pay benefits
                             and administrative costs and are not yet receiving financial assistance from PBGC.


                        14   Pension Benefit Guaranty Corporation
The following report is the second in a series of planned audits to address this growing
risk and make recommendations for an improved business model.

Protecting the Assets of Multiemployer Retirement Funds
(2008-6/PA-0037-1)

Based on our analysis of 44 terminated multiemployer plans, we selected a plan for
detailed review that had very high administrative costs. The objective for this audit
was to determine if PBGC could assist the Plan in better protecting the Plan’s assets,
thereby reducing the amount PBGC will pay in the future for financial assistance.

In our March 2008 report, we concluded that PBGC could assist the Plan in better
protecting the assets to reduce PBGC’s future financial assistance for this plan. The
assets of this recently terminated multiemployer plan are being depleted in a manner
that could cost the PBGC millions of dollars.
                                                                                            Administrative costs
Using 10 years of data, we analyzed the administrative costs of the Plan in several             of a terminated
different ways and we concluded the costs of this plan were disproportionately high as
compared to benefits paid.                                                                   multiemployer plan

  •	 When we calculated administrative costs as a percentage of benefits paid, we          were disproportionately
     noted for the year 1997, administrative costs were only 17% when compared to           high as compared to
     benefits paid to retirees. For each year thereafter, however, the costs continued
     to increase until, by 2006, the administrative costs were approximately 53% of             benefits paid.
     benefits paid, as shown in the chart below.




  •	 When we measured administrative costs on a per participant basis for 1997,
     we calculated the administrative costs to be $113 per participant. By 2006,
     administrative costs had increased to $367 per participant, a significant increase
     over 10 years.




                                 Semiannual Report Of The Inspector General—March 2008     15
                            When we performed a comparison of the administrative costs for the Plan to costs of
                            the other 44 terminated multiemployer plans, we found that:

                              •	 the Plan was in the top 25 percent on the list,
                              •	 the Plan had higher administrative costs as a percentage of benefits paid than
                                 most of the plans on the list.
                            PBGC has at least two options to assist the Plan in better protecting the assets and
                            reduce PBGC’s future liability.

                              •	 Develop a program to more closely monitor the expenses of terminated but not
                                 yet insolvent plans. This option would require collaboration with the Employee
                                 Benefits Security Administration (EBSA) of the Department of Labor.
                              •	 Another option is for PBGC to fund the Plan’s close-out soon or when the Plan is
                                 insolvent and avoid future administrative expenses. This would result in significant
                                 savings in PBGC’s future financial assistance.


                             Although PBGC could save approximately $4.3 million to $5.3 million in future
                            payments, there are obstacles to PBGC closing the Plan now. The first obstacle involves
                            PBGC’s inability to close out plans under which benefits exceed ERISA’s guaranteed
                            benefit levels. In this plan, some participants’ benefits exceed the statutory limit. The
                            trustees of the Plan cannot reduce these benefits in order to close out the Plan nor can
                            PBGC reduce these benefits. The second obstacle relates to whether and how PBGC
                            could collect withdrawal liability owed to the Plan.

                            PBGC is in a unique position to save millions regarding this Plan if PBGC can act soon
                            to close it out. The Plan has approximately $3.2 million in assets. If a regulatory or
                            legislative amendment were enacted to remove the legal obstacles noted herein or
                            if there were another source of funding non-guaranteed benefits, PBGC would only
                            need to fund approximately $2.3 million. Then, the Plan’s administrator could purchase
                            annuities to close the Plan. The underfunded gap for this plan continues to grow as
   PBGC may need            the Plan’s assets continue to deplete. This depletion is, in large part, due to the high
                            administrative costs.
regulatory or statutory

  changes to address        Therefore, we recommended that PBGC:
                            	
multiemployer program
                              •	 Determine whether PBGC can legally collect debts from employers, after a plan is
        issues.                  closed, who previously owed withdrawal liability to that plan.
                              •	 Explore whether regulations could be issued to assist in overcoming the obstacles
                                 to closing terminated but not yet insolvent multiemployer plans or whether
                                 legislative changes would be necessary.
                              •	 Develop a policy with respect to closing out terminated multiemployer plans that
                                 are not yet receiving financial assistance from PBGC.
                              •	 Determine, within one year, whether the Plan can be closed out in accordance with
                                 the policy.




                       16   Pension Benefit Guaranty Corporation
Audit of PBGC’s Employee Mass Transit and Subsidized Parking Programs

In April 2007, the Government Accountability Office (GAO) reported numerous
instances of fraud and abuse of the Employee Mass Transit Program (MTP) by Federal
employees. To support a cleaner environment by reducing the numbers of Federal
employees who drive to work, the MTP subsidizes employees’ transportation to
and from work if they use mass transit. In response to the GAO report, the Office of             Following GAO’s
Management and Budget (OMB) re-emphasized to all federal agencies the benefits of
the MTP and the importance of having good internal controls to guard against fraud,        government-wide report
waste, and abuse. To assist in addressing this area, we initiated an audit of PBGC’s MTP
                                                                                           finding fraud, we initiated
and its Subsidized Parking Program (SPP).
                                                                                                 a review of PBGC’s
Our overall objective was to determine the adequacy of PBGC’s controls over the MTP
                                                                                            transportation subsidy
and the SPP, and specifically to determine:
                                                                                                    programs.
  •	 PBGC’s adherence to prescribed internal controls established by OMB and its own
     policies and procedures;
  •	 If PBGC’s controls are adequate to prevent and detect fraud, waste or abuse;
  •	 How PBGC educates its employees on these programs, and
  •	 What role parking plays in PBGC’s MTP and SPP programs and determine how
     other agencies implement parking as part of their programs.


Although our work is still ongoing, we found that PBGC has taken a number of steps to
protect against fraud, waste, and abuse of the MTP and SPP; however, we found areas
where internal controls can be improved. For example, for the period we tested we
found:

  • Eleven former employees who could have downloaded MTP benefits on their
    smart cards months after they had left the agency. Out of the eleven employees,
    four downloaded their benefits after leaving the agency. OMB requires removal
    from the MTP to be included in an employee’s exit procedures. PBGC’s exit
    procedures did not always identify and remove employees from the MTP promptly.
  •	 Six PBGC employees were inadvertently listed as eligible to receive both MTP and
     SPP benefits, which is prohibited. Federal employees are only allowed to receive
     one of these benefits at a time. None of the employees received double benefits.


We briefed responsible agency program officials on these and other findings and
our recommendations. We expect to issue our draft report to PBGC in April 2008 and
will make several recommendations to address the improvements needed for these
programs to better guard against fraud, waste and abuse.




                                Semiannual Report Of The Inspector General—March 2008       17
                          4.	     Information Technology

                          PBGC’s mission of protecting and providing pension plan retirement benefits for
                          over 44 million Americans relies heavily on the integrity and security of the PBGC
                          information systems network, and the confidentiality, completeness, accuracy, and
                          availability of information and information processing requirements for pension
                          benefits. For the past several years, information security has been reported as a
                          significant deficiency in the financial statement audit’s internal control report. This
                          year, access controls to information systems was added as a separate significant
                          deficiency due to its importance and impact within the overall information security
                          program (see the Stewardship section for a full discussion).
                          We continue to perform work to assist the Corporation in meeting the challenges of
                          providing enhanced customer service through its IT systems, including protecting
                          the integrity and privacy of pension plan participants’ information, and effectively
                          planning and executing selection and development of those systems.

  We are reviewing        Review of Premium and Practitioner System (PPS) Project
PBGC’s development of     PBGC receives no funds from general tax revenues. PBGC’s revenue is derived
a premium accounting      from insurance premiums paid by insured pension plans, investment income, and
                          recoveries from employers responsible for terminated underfunded defined benefit
       system.            plans. Premium revenue totaled about $1 billion in 2007. Currently, PBGC uses
                          the Premium Accounting System (PAS) for processing premium payments for the
                          pension plans it insures. Among other things, the PAS system records, generates, and
                          calculates defined benefit plan premium receipts, late notices and premium billings,
                          and applicable penalties and interest for late payments.

                          PBGC’s goal is to reduce the expenses and delays involved with the current system,
                          and modernize its dated business processes by converting to an on-line, real-time
                          transaction based system that will process hardcopy premium filings, as well as
                          electronic filings over the Web. To achieve this goal, PBGC is reengineering its
                          processes to provide one-stop customer service to pension plan practitioners. As
                          an adjunct to the reengineering process, the new system will minimize the manual
                          processes that PAS relies upon to capture, maintain, and correct data. The system
                          will be known as the Premium and Practitioner System (PPS). The PPS solution is
                          defined as an integrated Commercial Off-the-Shelf (COTS) product with customized
                          components for premium operations.

                          PPS will become a part of the overall Consolidated Financial System (CFS) project that
                          is to streamline and integrate PBGC’s financial systems. The first implementation of the
                          CFS project was achieved in October 2006, which consolidated three general ledger
                          systems into one.

                          Using a fixed-price contract, the OIG hired a contractor to review PPS’ compliance
                          with the system development process and the effectiveness of project oversight. The
                          objectives of the work are:



                     18   Pension Benefit Guaranty Corporation
  • Has the PPS development project followed the PBGC Systems Life Cycle
    Methodology? Specifically:
      •	 Has oversight of the project been appropriate?
      •	 Have all appropriate approvals been received?
      •	 Has all testing been completed and system accepted by business owner?
  •	 Will the new system be easily maintainable? Specifically:
      •	 Have extensive modifications been made to a COTS solution?
      •	 Can required modifications be easily implemented?
      •	 Has all development been well-documented?
  •	 Has PPS addressed the issues and deficiencies identified with PAS?
The field work on this project is still on-going. We have had preliminary discussions
with certain PBGC management concerning our initial findings related to overall
project management and the impact of project delays. A report documenting our
findings and recommendations will be presented to PBGC management and reported
in our next semiannual report.

Review of PBGC’s Internet Protocol version 6 (IPv6) Readiness

We are reviewing PBGC’s ability to comply with implementation requirements for
Internet Protocol version 6 (IPv6). In addition to other advantages of implementing
IPv6, the major issue it endeavors to resolve is the expansion of Internet addresses,
which is how Internet traffic is routed to and from various locations. With the current
                                                                                              We are testing PBGC’s
number of addresses in IPv4 dwindling, the implementation of IPv6 will add an
additional number of addresses equal to 3.4 x1038. However, for the implementation          readiness to convert to the
of all of these new addresses to be advantageous and work properly, network
                                                                                             new expanded internet
equipment attached to the Internet that route this traffic both externally and internally
must be able to recognize these new addresses. The Office of Management and                         protocol.
Budget (OMB) has issued requirements through its Memorandum 05-22 that all federal
agencies have this equipment (referred to as the network core) installed and tested by
June 30, 2008. This equipment should be capable of transmitting and supporting both
IPv4 and IPv6 traffic and addresses.

The Federal government has also requested all agencies transition their network
backbones to IPv6 for the following additional reasons:

  •	 To take advantage of secure end-to-end communications;
  •	 To address the challenge faced by the U.S. from international competition in the
     realm of IPv6; and
  •	 To lead by example in U.S. enterprise IPv6 transformation.

The primary objectives of this review are to determine if PBGC will be able to comply
with OMB Memorandum 05-22 and can demonstrate its capability to:

  •	 Transmit IPv6 traffic from the Internet and external peers, through the core Wide-
     Area Network (WAN), to the Local-Area Network (LAN).

                                Semiannual Report Of The Inspector General—March 2008        19
                               •	 Transmit IPv6 traffic from the LAN, through the core WAN, out to the Internet and
                                  external peers.
                               •	 Transmit IPv6 traffic from the LAN, through the core WAN, to another LAN (or
                                  another node on the same LAN).


                             We have completed our field work on this review and will be issuing a management
                             advisory report to PBGC management soon. The results will be reported in our next
                             semiannual report.

                             Management Action on Ariel

                             In our last semiannual report, we summarized our work related to a post-
                             implementation review of the Ariel application, a replacement system for PBGC’s
 Management used our         existing Actuarial Calculation Toolkit II. Overall, our conclusions indicated that PBGC
                             needed to:
   report to evaluate

continued use of the Ariel     • Reassess and verify the cost and benefits of this application before making any
                                 additional investments;
         system.
                               • Solicit and determine if other vendors were available to value plan benefits; and
                               • Ensure compliance with an IT solutions and project management methodology
                                 when investing additional resources in the benefit calculation and valuation
                                 process.


                             During this same timeframe, one of the Chief Operating Officer’s (COO) goals was to
                             revisit the whole benefit calculation and valuation process. Our report provided PBGC
                             with timely, accurate information to assist them in their decision-making process.
                             We were encouraged that PBGC has now completed an extensive effort to perform a
                             risk assessment, cost/benefit analysis, and selected an investment strategy to build a
                             process that will be cost effective and efficient. The COO and PBGC management said
                             that our report was very helpful in supporting their reevaluation of continuing with
                             the Ariel system. We appreciate their efforts to keep us informed of their progress and
                             decisions.

                             Possible compromise of personally identifiable information

                             PBGC management reported that a PBGC employee, whose background investigation
                             came back with derogatory information, abruptly left the PBGC Headquarters. Since
                             the employee had access to sensitive Personal Indentifying Information (PII), we
                             were asked to investigate whether there had been any PII breaches. We reviewed
                             information to determine if the individual had accessed certain systems during
                             the weekend or after the day the individual left the PBGC. For that period of time
                             reviewed, there was no suspicious activity noted. At the request of management, we
                             are reviewing other areas of concern.




                        20   Pension Benefit Guaranty Corporation
Compliance with Omnibus Appropriations Act, 2008

In the recently enacted Omnibus Appropriations Act, Congress included three
provisions regarding access to and usefulness of OIG websites which requires:

  •	 Each executive department and agency to establish and maintain on the
     homepage of its website, an obvious, direct link to the website of its respective
     Inspector General
  •	 Each Office of Inspector General to:
      •	 Post on its website any public report or audit or portion of any report or audit
         issued within one day of its release;
      •	 Provide a service on its website to allow an individual to request automatic
         receipt of information relating to any public report and which permits
         electronic transmittal of the information, or notice of the availability of the
         information, without further request; and
      • Establish and maintain a direct link on its website for individuals to
         anonymously report waste, fraud and abuse.

In response to the above requirements, we modified our website to comply and
requested PBGC to change its link to our site. PBGC officials took immediate action to
improve the visibility of the link to the OIG’s website on PBGC’s site.


5. Procurement and Contracting

Procurement at PBGC is a significant activity. In its FY2009 Congressional budget
submission, PBGC reported that it spends about two-thirds of its annual budget
through contracts. In addition, between 2000 and 2007, PBGC’s contracting activity
more than doubled. Total active contracts for FY2007 totaled $824M. These trends
make contract management a major challenge for PBGC.

Over the last several years the OIG, the Government Accountability Office (GAO) and
the PBGC’s Contracts and Controls Review Department have issued a number of audit
and evaluation reports to the Procurement Department identifying improvements and
                                                                                            The Procurement Director
recommendations that are needed. The OIG continues to devote a significant portion
of its resources to audits and reviews of PBGC’s procurement and contracting activities,    addressed long-standing
and to consultations and fraud briefings with procurement staff. Our audits include
                                                                                                     issues:
those of PBGC contractors to verify that their billings are reasonable, supported and
consistent with the contract terms, and of PBGC’s procurement process to identify           Labor-Hour Contracts and
improvements.
                                                                                            a new Procedures Manual.
Significant Progress in Addressing Long-Standing Procurement Issues

Fewer labor-hour contracts. In the past, the OIG commented on the Corporation’s
practice of awarding a large percentage of labor hour contracts and a relatively small
percentage of performance-based contracts. However, the Corporation is making



                                 Semiannual Report Of The Inspector General—March 2008       21
                              progress in reducing the number of labor hour contracts from an average of 62
                              percent in FYs 2001-2006 to 40 percent in FY2007. By an Order issued in September
                              2007, PBGC established its “policy to use as a first choice fixed priced performance-
                              based competitive procurements.” Labor hour contracts are evolving into one of a
                              variety of contract types, rather than the predominant contract type. This has resulted
                              from education about different contract types and risk of labor-hour contracts, and
                              the agency’s ability to better define requirements for statements of work and estimate
                              costs. Labor-hour contracts are still used where appropriate.

                              New Procedures Manual. PBGC’s Procurement Director recently issued the “PBGC
                              Procurement Department Standard Operating Procedures Manual,” which resolves
                              long-standing GAO and OIG audit findings that no written procurement policies and
                              procedures had been established or were out of date. Completion of the Manual
                              is a major accomplishment toward promoting consistency in the application of
                              procurement policies and procedures. The Manual contains numerous hyperlinks
                              to the Federal Acquisition Regulation and sample formats of various contractual
                              documents that contract specialists prepare. The document was distributed to the
                              procurement staff and they were trained on how to use it effectively.

                              Report on PBGC’s Contract Administration
                              (2008-4/CA-0033-2)
PBGC needs to strengthen
                              As a companion to an incurred cost audit focused on the contractor’s billings, we
its contract administration
                              also conducted an audit of PBGC’s administration of that contract. We found PBGC
  to ensure contractors       needed to improve its contract administration by holding the contractor accountable
                              for complying with the contract terms and better monitoring the performance and
 meet qualifications and
                              payment. We identified two root causes for the $167,459 costs questioned in the
experience requirements.      incurred cost audit report issued in September 2007.

                               •	 The contractor did not always verify the qualifications and experience of their
                                  employees assigned to the PBGC contract. We found the COTRs relied on
                                  erroneous information provided by the contractor and did not evaluate the
                                  contractor’s process for assigning personnel on the contract. This resulted in
                                  improper payments of $147,681 for five (5) of the contractor’s employees who
                                  were not qualified under the terms of the contract; and
                               •	 The COTRs did not adequately monitor the contractor’s performance and payment,
                                  resulting in unallowable costs of $19,778.

                              To strengthen the contract administration function, we recommended that PBGC
                              emphasize to its contractors their obligation to verify the education and experience
                              of their employees, and provide more guidance to COTRs and contract monitors who
                              have contract oversight responsibilities. The PBGC Contracting Officer and other
                              agency officials generally agreed with the recommendations and stated they would
                              complete all corrective actions by the third quarter of FY2008.




                       22     Pension Benefit Guaranty Corporation
Incurred Cost Draft Audit Reports on PBGC Contractors

At the end of this reporting period, we issued two draft reports with identified issues
and questioned costs. The primary issue and questioned costs relate to contractor
personnel who did not meet minimum experience requirements under the terms
and provisions of the contract or, as represented in their proposal submissions, use
the GSA rate structure for specific position classifications. We briefed our findings to
the Procurement Director and are awaiting the contractors’ responses to identified
issues and questioned costs in the draft reports. We expect to issue the final reports
in May with the detailed findings and recommendations, along with the contractor’s
response, and report in the next semiannual report.

Audit Resolution & Follow up

In the past six months, the Procurement Director submitted 24 Recommendation
Completion Forms to address outstanding recommendations from previous OIG
reports. We followed up on the recommendations and concluded that sufficient
corrective actions had been taken to close all of these recommendations. Most
noteworthy was the completion of a new procurement operating manual, as cited
above. We commend the Procurement Director’s serious pursuit and dedication of
resources to address OIG recommendations.

Unauthorized Release of Procurement Sensitive Data

The OIG investigated an allegation that a PBGC Federal employee, who was the
Chair of a Technical Evaluation Panel (TEP), had improper discussions with a PBGC
contractor employee during the procurement bid evaluation process. The TEP Chair
initially denied the improper comments, but later confessed making statements to
the contractor employee about the quality of his management’s presentation to the
TEP. This violates the Standards of Ethical Conduct for Employees of the Executive
                                                                                           Office of Investigations
Branch, and the Federal Acquisition Regulation. Both the improper procurement
communication admission and false statements given during an OIG investigation                  worked to protect
were referred to PBGC management for appropriate action.
                                                                                                   integrity in
OIG Investigations Works with Procurement to Detect Fraud                                  procurement practices.

During this reporting period, OIG Investigations began monthly fraud training sessions
with the PBGC Procurement Department to present various topics relating to fraud
schemes and procurement “red flags.” The sharing of knowledge, experiences and
ideas between OIG Investigations and the Procurement staff has sharpened the staff’s
skills and knowledge, and resulted in a closer working relationship to help protect the
integrity of the PBGC procurement system.




                                 Semiannual Report Of The Inspector General—March 2008     23
     Other OIG Reporting
     Access to Information

     Under the Inspector General Act, the Inspector General is to have unfettered access
     to all agency records, information, or assistance when engaged in an investigation
     or audit. Whenever access to requested records, information, or assistance is
     unreasonably refused or not provided, the Inspector General must promptly report the
     denial to the agency head.

     During this six month reporting period, the Inspector General’s access to information
     was not restricted.

     Management Decisions

     The Inspector General is required to report the following about management decisions
     on audit reports that occurred during this six-month period:

      • There are no audit reports for which management decisions are pending.
      • There were no significant revised management decisions.
      • There were no management decisions with which the Inspector General
        disagreed.




24   Pension Benefit Guaranty Corporation
Other Office of Inspector
General Activities
Review of Proposed Statutory and Regulatory Changes
Statutes

A major responsibility of the OIG under the Inspector General Act is to independently
review PBGC-proposed changes to laws and regulations. ERISA was amended in
August 2006 by the Pension Protection Act of 2006 (PPA) to provide simplicity,
flexibility, accuracy and stability in the defined benefit pension insurance program
that PBGC administers; there were no significant PBGC statutory proposals this period.
As described below, the Acting IG was actively engaged on the IG community’s
Legislation Committee that had input into House and Senate bills to amend the IG Act.

Regulations

PBGC continues in a major effort to streamline its regulations and to improve
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. Its recent regulation
changes were required to implement the PPA’s amendments relating to when PBGC
would guarantee shut-down benefits and how bankruptcy impacts guaranteed
benefits. We reviewed, provided written comments, and had substantive
conversations with the drafters of these proposed rules.

Assistance to Other OIGs
Federal Elections Commission – Implementing TeamMate
The Federal Elections Commission (FEC) OIG is in the process of implementing
TeamMate, the electronic workpaper package we installed during this period. To
minimize the effort required to get this package installed, FEC asked for our assistance
in developing their initial audit library. This library is a comprehensive definition of
terms that specifically defines the process and protocol for performing audits using
                                                                                            We provided assistance
TeamMate. Its development is both a crucial part of implementation and time-
consuming. We were able to package and send the library we developed to the FEC as              to other OIG offices.
a starting point in their implementation.

General Services Administration –Developing COOP
The General Services Administration OIG requested information about how we
handled development, training, and testing of our own OIG contingency plan.
Because PBGC has devoted significant resources to developing and continuously
improving its contingency planning processes, we were able to provide information
about how PBGC developed its contingency plan. We also discussed how the OIG
has two distinct roles in the development process: first as an office within the agency

                                Semiannual Report Of The Inspector General—March 2008      25
                             that needs to do its own contingency planning, and also as an important oversight
                             resource and law enforcement liaison during an emergency event. In addition, since
                             the OIG operates a separate network within PBGC, we have duplicated our systems,
                             both hardware and software, at our off-site location and participate in all testing of
                             PBGC’s contingency plan. We provided the GSA OIG a copy of our own COOP plan.

                             National Labor Relations Board- Rebate Fraud
                             During this reporting period, the Office of Investigations provided assistance to the
                             National Labor Relations Board regarding purchase card transactions at companies
                             that provide rewards to individuals. We shared information about our investigative
                             approach and tools pertaining to our investigation into rewards earned as a result of
                             purchases using the Government purchase card, and internal control concerns.

                             Chinese Delegation Visits PBGC OIG
                             The OIG hosted a delegation of Internal and Anti-Bribe Inspectors from the Henan
                             Province, China. The delegation is part of the Ministry of Supervision, which has
OIG shared anti-fraud        primary responsibility for government supervision of the procurement process,
                             and law enforcement related to bribery, corruption, and misconduct by Chinese
program with Henan
                             government officials. The OIG conducted a half-day training session, providing an
Province officials from      overview of the OIG’s authority, role and responsibility as an oversight agency for
                             PBGC. As part of an overall effort to improve the knowledge and skills in an oversight
        China.
                             capacity, the Ministry of Supervision sends a delegation from the various provinces in
                             China to the United States each year to train and learn from different state and federal
                             oversight agencies such as the PBGC.

                             Audit Peer Review of CPB
                             We conducted a quality control review of the audit operations of the Office of
                             Inspector General of the Corporation for Public Broadcasting (CPB). External peer
                             reviews are conducted within the OIG community to evaluate the audit organization’s
                             system of internal quality control and to ensure that it complies with generally
                             accepted government auditing standards (the GAO Yellow Book). As part of the peer
                             review, we evaluated the CPB OIG’s staff qualifications, their independence, audit work,
                             training, and quality control procedures. The results of our peer review can be found
                             on the CPB OIG’s website at www.cpb.org/oig.

                             OIG’s Strategic Initiatives
                             Our Strategic Plan is focused in three “voices”: the Stakeholder, the Business, and the
                             Employee. We continued to commit significant resources this period to ensuring the
                             successful implementation of two major initiatives by January 2008:

                               •	 Implementing electronic management and document software packages for the
                                  Office of Audits and Office of Investigations (Voice of the Business); and
                               •	 Developing and implementing a new performance management system (Voice of
                                  the Employee).
                             An OIG team also worked to define our values of respect, excellence and integrity.


                        26   Pension Benefit Guaranty Corporation
Electronic Audit & Investigative Management Systems
TeamMate is a planning, tracking and workpaper management software designed
specifically for audits. A team consisting of OIG staff and a contractor, with input from          We implemented
OIG management, spent a majority of this period completing the development of
this automated workpaper package for audit staff to begin using in January 2008.              electronic management
TeamMate has a number of modules that we customized to plan, coordinate, monitor,             and document tracking
and manage our audits in a completely automated environment. In addition to
automated workpapers, TeamMate allows us to complete and monitor progress of                   systems in the OIG’s
our audit plans; issue and track recommendations; build and better manage our audit            Offices of Audits and
projects; and manage staff time and expenses related to our work schedules.
                                                                                                    Investigations.
As of January 2008, we successfully implemented TeamMate and provided training to
our audit staff and management. Starting in February 2008, all auditors are required
to use this system for all audits. Since this is a radically different way to conduct and
document our audit work, we have only implemented the workpaper portion of the
system now. We plan to proceed with implementing the other modules to further
improve our ability to plan, coordinate, monitor and manage our audits in FY2009.

The Office of Investigations procured an electronic case management system for the
purposes of tracking and reporting investigations. The Case Management & Tracking
System (CMTS) became fully operational in January 2008, and provides the OIG
with greater infrastructure and functionality to conduct and monitor investigations.
Using CMTS, investigators will have a fully-electronic case file and the Assistant IG for
Investigations will have timely and reliable oversight of cases to ensure efficiency and
effectiveness of investigations. It will also allow OIG to more easily assemble statistical
information for various required reports to Congress.

New Performance Management and Appraisal System
Over the past year, the OIG worked with a contractor to develop and implement a
new Performance Management and Appraisal System (PMAS). This PMAS is based
on individuals’ outcomes that cascade down from OIG strategic goals, rather than
the traditional skills-based evaluation. It included developing a clear performance
management policy and guidance handbook, training, and individualized coaching
and feedback for OIG staff as each of us developed individual performance plans. As
part of the PMAS, each staff member worked with their supervisors to:

  •	 Define performance objectives that include specific results and performance
     criteria;                                                                                 We also implemented
  •	 Incorporate OIG core values linking to the performance evaluation;                            our own outcome-
  •	 Develop a Continuous Learning Plan; and                                                       based performance
  •	 Institute a self-assessment tool and 360 evaluation
                                                                                               management system.
This new PMAS was a stretch for all involved, but resulted in meaningful conversations
about goals and appropriate measures. The individual performance plans provide
clarity of expectations for both staff and supervisors, helping the OIG to make further
strides toward building a high performance organization, and developing and
retaining highly-engaged staff.


                                 Semiannual Report Of The Inspector General—March 2008        27
                          Core Values
                          Because we want our values to guide our conduct and be integral to performance
                          discussions, it is important to have a shared understanding of “respect, excellence,
                          and integrity.” A team of OIG staff volunteered to draft definitional statements that
                          would address	 work performance, professional development, use of technology, and
                          personal standards. The team received feedback from staff through written comments
                          and open meetings, resulting in our new values statements (see page 4).

                          External Activities
                          Various staff members participated in external professional activities, including:

                            • The Acting IG was an active participant of the Executive Council on Integrity and
                              Efficiency (ECIE), a council of Inspectors General that promotes collaboration on
OIG staff are involved        integrity, economy, and efficiency issues that transcend individual agencies. She
                              served as member of the Legislative Committee that reviews proposed legislation
  in IG community             affecting IGs. We continued to work with Congress toward passage of bills in the
                              House and Senate to amend and strengthen the IG Act, as well as considering
  and professional
                              other legislative proposals to assist OIG’s fraud detection and prevention activities.
   organizations.
                            •	 The Assistant IG for Audits is a member of the Audit Committee of the Federal
                               Audit Executive Council (FAEC). FAEC’s purpose is to discuss and coordinate issues
                               affecting the federal audit community, with special emphasis on audit policy
                               and operations of common interest. This period the Committee commented on
                               proposed audit standards for federal financial statement audits, and monitored
                               joint activities of the International Auditing and Assurance Standards Board
                               and the Auditing Standards Board of the American Institute of Certified Public
                               Accountants. The Committee also established the 2008 peer review schedule.
                            • The Assistant IG for Investigations joined the Permanent Curriculum Review
                              Committee (PCRC) established by the Inspector General Academy. The PCRC
                              members are criminal investigators with law enforcement training, knowledge
                              and experience. The purpose of the PCRC is to review and revise, as necessary,
                              the IG Academy’s training curriculum to ensure that investigators receive up
                              to date training in various procedures, techniques and legal issues that impact
                              investigations conducted by the IG community.
                            • OIG Investigations became a member of the National White Collar Crime Center
                              (NW3C), a congressionally-funded, non-profit corporation comprised of law
                              enforcement agencies, state regulatory bodies with criminal investigative
                              authority, and state and local prosecution offices. The NW3C provides a nationwide
                              support system for agencies involved in the prevention, investigation, and
                              prosecution of economic and high-tech crimes to support and partner with other
                              appropriate entities in addressing homeland security initiatives. This membership
                              provides OIG investigators with quality training, investigative support and research
                              services.
                            •	 IT Audit Manager serves as the Program Committee Chair for a chapter of the
                               Information Systems Audit and Control Association to assist members to meet
                               their certification requirements in the fields of audit, technology, security, controls,
                               and management for both the private and public sectors.

                     28   Pension Benefit Guaranty Corporation
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the
Inspector General Act of 1978, as amended, to the specific pages in the report where
they are addressed.

Inspector General
Act Reference	         Reporting Requirements	                              Page
Section 4(a)(2)	       Review of legislation and regulations.	              25
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.	     5-23
Section 5(a)(2)	       Recommendations with respect to significant 	        5-23
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which	          31
	                      corrective action has not been completed.	
Section 5(a)(4)	       Matters referred to prosecutorial authorities.	      12-13
Section 5(a)(5)	       Summary of instances in which information 	          24
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 	 30
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   5-23
Section 5(a)(8)	       Statistical table showing number of reports and 	    30
	                      dollar value of questioned costs.	
Section 5(a)(9)	       Statistical table showing number of reports and 	    30
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit report issued before this 	    24
	                      reporting period for which no management
	                      decision was made by end of reporting period.	
Section 5(a)(11)	      Significant revised management decisions.	           24
Section 5(a)(12)	      Significant management decisions with which 	        24
	                      the Inspector General disagrees.	
		




                               Semiannual Report Of The Inspector General—March 2008   29
REPORTS ISSUED WITH QUESTIONED COSTS
AND FUNDS PUT TO BETTER USE*
For the Six-Month Period Ending March 31, 2008




                                                     Number          Questioned         Unsupported       Funds put to
                                                    of Reports         Costs              Costs**          Better Use

 A. For which no management decision had                  9            $2,017,099            $4,241              $0
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting                0                $0                  $0                $0
    period.

     Subtotal (Add A. & B.)                               9            $2,017,099            $4,241              $0


 C. For which a management decision was                   0                $0                  $0                $0
    made during the reporting period.

     (i) dollar value of disallowed costs                 0                $0                  $0                $0


     (ii) dollar value of costs not disallowed            0                $0                  $0                $0


 D. For which no management decision had                  9            $2,017,099            $4,241              $0
    been made by the end of the reporting
    period.
 E.	 For which no management decision was                 9            $2,017,099            $4,241              $0
     made within six months of issuance.



 * This statistical information is required by Section 5(a)(6)(8) and (9) of the Inspector General Act of 1978, as
   amended.
 **Unsupported costs are a subset of questioned costs.




                    30         Pension Benefit Guaranty Corporation
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS




Report Number, Report Title and         Number of             Significant Problems Summary of Significant
Date Issued                             Significant           and Deficiencies     Recommendations
                                        Recommendations
96-4/23093-2                                                  Significant           PBGC needs to complete the
Audit of the Pension Benefit                                  Deficiency:           integration of its financial
Guaranty Corporation’s Fiscal                                 Integrating           management systems.
Year 1995 Financial Statements                   1*           Financial
03/13/1996                                                    Management
                                                              Systems
2003-3/23168-2                                                Signficant            PBGC needs to complete its
Audit of the Pension Benefit                                  Deficiency:           efforts to fully implement and
Guaranty Corporation’s Fiscal Years                           Entity-Wide           enforce an effective information
2002 - 2001 Financial Statements                               Information          security program.
                                                 6*
01/30/2003                                                    Security Program
                                                              Planning &
                                                              Management

2008-1/FA-0034-1                                              Significant           PBGC needs to mitigate the
Audit of the Pension Benefit                                  Deficiency:           systemic issues related to
Guaranty Corporation’s Fiscal Years                           Access Contols        information access control.
2007 - 2006 Financial Statements
11/15/2007
      and                                       11*
2008-2/FA-0034-2
Limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit



This chart complies with Section 5(a)(1)(2) and (3) of the Inspector General Act of 1978, as amended.
  * Includes Significant Recommendations from previous semi-annual reports on which corrective action has not
     been completed.




                                 Semiannual Report Of The Inspector General—March 2008        31
SUMMARY OF INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending March 31, 2008

Investigations
	   Pending beginning of period	                           *20
	   Opened	                                                 16
	   Closed	                                                 19
	   Pending end of period	                                  17
Complaints
	  Pending beginning of period	                             *0
	  Opened	                                                  52
	  Closed	                                                  43
	  Pending end of period	                                    9
Financial Recoveries**
	   Theft of Funds Recovered	                          $20,199
	   Court Ordered Fines, Penalties, and Restitution	   $15,004
	   U.S. Government Property Recovered	                     $0
Criminal Actions**
	   Arrests	                                                 1
	   Indictments	                                             2
	   Convictions	                                             1
Administrative Actions**
	  Terminations	                                             0
	   Suspensions	                                             0
	  Oral or Written Reprimand	                                0
Referrals
	   For Prosecution:
		 Department of Justice	                                    0
		         Declined	                                         0
		 Various States’ Attorney Offices	                         0
		         Declined	                                         0
	   For Other Action:
		        PBGC Management for Corrective Action	             1

     * 	The Office of Investigations implemented an electronic case management system this period. The “pending
        end of period” investigations (12) and inquiries (8) from last period’s Semiannual Report are now combined
        in “Investigations,” and a new category, “Complaints,” began as 0.
     ** Results reported for Financial Recoveries, Criminal and Administrative Actions include both open and closed
       cases.




                     32       Pension Benefit Guaranty Corporation
If you want to report or discuss confidentially any instance of
     misconduct, fraud, waste, abuse, or mismanagement,
                         please contact
                the Office of Inspector General.


                         Telephone:

              The Inspector General’s HOTLINE
                      1-800-303-9737

    The deaf or hard of hearing, dial FRS (800) 877-8339
     and give the Hotline number to the relay operator.

                            Web:

       http://oig.pbgc.gov/investigation/details.html

                           Or write:

           Pension Benefit Guaranty Corporation
                Office of Inspector General
                       PO Box 34177
               Washington, DC 20043-4177
